              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




    Audit Report


   Management Controls over
   Defense Related High Risk
   Property




OAS-M-08-06                                 April 2008
                             Departtment sf Energy
                                   VVashlny~on,u i   ~ ~ 5 6 5
                                   A p r i l 2 4 , 2008



M1:MOIIANDUM FOR l f 1 E 4SSOCIA'PE ADMIlVlSTRATOR FOR MANAGEMENT


FROM:                          -

                    1
                     / .4lsistant Inspector General for NNSA and Energy Audits
                          Office of Inspector General

SIIBJEC'T:                INFORMATION: Audit Report on "Management Controls
                          over Defense Related High Risk Property"

1N.I'KODUCTION AND OBJECTlVE
--




The Department of Energy's National Nuclear Security Administration (NNSA) was
established to maintain and enhance the safety, security, reliability, and performance of
the nation's nuclear weapons stockpile. To help NNSA perform its mission, both Los
Alamos National 1,aboratory (Los Alamos) and Sandia National Laboratories (Sandia)
utilize and maintain firearms, fireann components, weapons, and protective force
equipment to protect its operations and facilities. These items are considered defense
related "high risk" p~.opel.ty,according to the Cnited States Munitions List, because their
uncontrolled release could potentially impact public health and safety, the environment,
and national security interests. Therefore, they are also subject to export controls.

Federal regulation 4 1 (IFR 109 Depurtntent ofEnergy Property Manageinent
Regzrl~ltion.~,
              requires Departmental organizations and designated contractors to manage
and control Government-owned high risk property over its lifecycle. in order to protect
against misuse, theft, and misappropriation. Lifecycle accountability is continuous from
the time of acquisition until final disposal. Federal regulations also require contractors to
review high risk personal property prior to its reutilization or disposal in accordance with
property management policies and procedures.

We initiated this audit to determine whether Los Alamos and Sandia were effectively
managing defense related high risk property. Our review was limited to firearms, firearm
components, and protective force equipment.

RESULTS OF AUDIT
--



1,os Alamos and Sandia had effective administrative controls in place over the
accountability of firearms, including formal inventories, adequate docurnentation, and
proper segregation of duties. However, administrative controls over other defense related
high risk property such as firearm barrels, body armor, and gas masks were not sufficient
for providing accountability. Specifically, the laboratories did not always:

       maintain con~pleteand accurate inventories of firearm barrels, body armor, and
       gas masks;
                                             2


   •   document the disposal of these items, as required by both Federal regulations and
       internal policies; and,

   •   segregate duties over protective force equipment, such as body armor and gas
       masks to reduce the risk of error or fraud.

Although in some cases, the laboratories listed gas masks and body armor on informal
logs and spreadsheets, we found these lists to be inaccurate. For example, we conducted
a 100 percent inventory of Los Alamos' protective force body armor vests and discovered
33 vests that had not been recorded in the logs. We also found that a Los Alamos line
organization had not documented the destruction of used gas masks prior to their
disposal, and the Sandia protective force had not documented the destruction of used
firearm barrels. Finally, both sites had individuals responsible for multiple tasks
pertaining to the control over high risk property including receiving, controlling
inventory and issuing protective force equipment. Thus, the internal control benefit of
segregation of duties was lost.

Los Alamos and Sandia did not follow or require their subcontractors to follow Federal
high risk property regulations for their defense related high risk property. Both sites
asserted that a 1996 property waiver from the former Albuquerque Operations Office
exempted them from lifecycle control of high risk property. However, the Albuquerque
Operations Office had provided the waiver conditioned on the sites performing "tail-end"
reviews of the high risk property's lifecycle to ensure that items such as firearm barrels,
body armor and gas masks were not usable prior to disposal. Although Los Alamos and
Sandia required such reviews and Sandia included the requirement in mandatory
employee training, line organization staff, including protective force officials, were not
always aware of the requirements. For example, Los Alamos staff who disposed of gas
masks indicated that they were unaware that the Los Alamos property management
organization should have been contacted before the gas masks were destroyed.

The lack of accountability controls over firearms barrels, gas masks and body armor
increased the risk that theft of these items could go undetected. Recently, at another
Department site, barrels, rifle scopes, and body armor were stolen and sold for personal
gain. This was the subject of an Office of Inspector General investigation. We
concluded that increased attention to management and accountability controls at both Los
Alamos and Sandia could minimize potential vulnerabilities to public safety and security.

During our review, the Sandia and Los Alamos Site Offices rescinded the laboratories'
property waivers. In rescinding the waivers, the site offices pointed out that Sandia and
Los Alamos are expected to fully comply with Federal high risk property regulations.
While the rescission of these waivers is a positive step, we made recommendations to
improve NNSA’s and the laboratories' controls over high risk property.
                                            3


MANAGEMENT REACTION AND AUDITOR COMMENTS

NNSA concurred with our recommendations to perform accurate inventories, document
disposals and segregate duties. NNSA agreed that the lack of controls over firearm
components and protective force equipment increased the potential of theft for personal
gain. However, NNSA asserted that the lack of controls did not adversely impact
national security interests, since the components and equipment could be easily acquired
commercially by the general public.

Further, NNSA suggested that we recommend that NNSA's Senior Procurement
Executive expedite the completion of the Business Operating Practices directives to
ensure consistent application of high risk property controls throughout the NNSA
complex.

Management's comments are responsive to our recommendations. However, we disagree
with NNSA's statement that "the lack of controls over firearm components and protective
force equipment could adversely impact national security interests, since the components
and equipment could be easily acquired commercially by the general public." Federal
regulation 41 CFR 109 Department of Energy Property Management Regulations,
specifically states that high risk property guidance is intended to ensure that the
disposition of high risk personal property such as firearm components and protective
force equipment, does not adversely affect the national security of the United States.

Attachment

cc: Acting Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
REPORT ON MANAGEMENT CONTROLS OVER DEFENSE RELATED HIGH
RISK PROPERTY


TABLE OF
CONTENTS


     Management of Defense Related High Risk Property


     Details of Finding ...........................................................................1

     Recommendations ..........................................................................4

     Comments ......................................................................................5


     Appendices

     1. Objective, Scope, and Methodology..........................................6

     2. Prior Reports ..............................................................................8

     3. Management Comments............................................................10
MANAGEMENT OF DEFENSE RELATED HIGH RISK PROPERTY


Management of          Los Alamos National Laboratory (Los Alamos) and Sandia
Defense Related High   National Laboratories (Sandia) had effective administrative
Risk Property          controls in place over the accountability of firearms. These
                       controls included formal inventories, adequate
                       documentation, and proper segregation of duties. However,
                       we found that administrative controls over other defense
                       related high risk property such as firearm barrels, body
                       armor, and gas masks were not sufficient for providing
                       accountability. Specifically, we found that both Los
                       Alamos and Sandia did not maintain complete and accurate
                       inventories of firearm barrels, body armor, and gas masks.
                       Although in some cases, the sites listed these items on hand
                       written logs and spreadsheets, we found these lists to be
                       inaccurate. Additionally, Los Alamos and Sandia did not
                       always document the disposal of these items, as required by
                       both federal regulations and internal policies. Furthermore,
                       the sites did not always segregate duties for the acquisition,
                       inventory, and issuance of protective force equipment such
                       as body armor and gas masks.

                                                Inventories

                       Neither Los Alamos nor Sandia maintained complete and
                       accurate inventories of protective force high risk property.
                       Although the sites tracked some protective force equipment
                       on informal lists, we found these lists to be inaccurate. At
                       Los Alamos, for example, the protective force armorer
                       could not determine the total number of firearm barrels that
                       had been acquired, issued, or were currently on-hand, since
                       formal inventory records had not been maintained.
                       Although Los Alamos' protective force logistics manager
                       maintained a list of body armor vests, we found this
                       inventory record to be inaccurate. We conducted a 100
                       percent inventory of Los Alamos' protective force body
                       armor vests and discovered 33 fewer vests than were
                       recorded on written logs. As a result of our review, the
                       protective force logistics manager explained this
                       discrepancy by stating that the protective force had not
                       received these items purchased in 2003 and had been
                       overcharged by the vendor. However, the manager did not
                       provide any evidence to support this claim. During our
                       inventory, we also noted other errors. For example, the
                       listings:

                          •   Contained incorrect serial numbers;



Page 1                                                           Details of Finding
________________________________________________________________________


                           •   Included duplicate entries for issued body armor,
                               and;

                           •   Incorrectly excluded body armor physically located
                               in the supply room and warehouse.

                        Although Sandia did not have formal inventories, it did
                        maintain listings of surplus barrels, body armor and gas
                        masks. However, these listings were not always complete
                        or accurate. Specifically, Sandia's inventory listings did
                        not account for expired body armor vests that were stored
                        in an equipment trailer. Since Sandia had not inventoried
                        the body armor prior to its storage, it could not determine if
                        any the body armor was lost or stolen. As a result of our
                        review, protective force personnel inventoried the body
                        armor. The protective force operations manager agreed
                        that the lack of control and accountability could lead to
                        potential theft or personal misuse of these property items.

                        We also conducted an inventory and compared our results
                        to Sandia's informal listing of gas masks. Our inventory
                        found that ten gas masks were missing. Sandia reduced its
                        log by ten gas masks to agree with our physical count.
                        However, Sandia could not ensure that the ten gas masks
                        had not been subject to theft or diversion. As a result of
                        our review, Sandia implemented additional controls, such
                        as a property sign-out log to control the transfer of gas
                        masks to and from the supply room.

                        Additionally, both federal regulations and internal policies
                        at both sites require a documented high risk review to
                        ensure compliance with national security controls prior to
                        high risk property being reutilized or disposed. For
                        example, defense related articles, such as firearm barrels,
                        body armor and gas masks must be disposed of in
                        accordance with the Department of Defense
                        demilitarization requirements. Specifically, the
                        Demilitarization Manual requires these items to be cut up
                        or destroyed prior to their disposal, and that the destruction
                        be verified and documented. However, we found that a Los
                        Alamos line organization had not documented the
                        destruction of used gas masks prior to their disposal.
                        Similarly, Sandia protective force had not documented the
                        destruction of used firearm barrels. Although both Los
                        Alamos and Sandia asserted that high risk property had
                        been destroyed in accordance with demilitarization


Page 2                                                            Details of Finding
________________________________________________________________________


                        requirements, both sites fully acknowledged that all future
                        destruction of high risk property must be coordinated with
                        their respective property management organizations.

                                            Segregation of Duties

                        Neither Los Alamos nor Sandia segregated duties to ensure
                        defense related high risk property was properly controlled.
                        Federal standards for internal controls state that key duties
                        and responsibilities need to be divided or segregated among
                        different people to reduce the risk of error or fraud. This
                        should include separating the responsibilities for
                        authorizing transactions, processing and recording them,
                        reviewing the transactions, and handling any related assets.
                        No one individual should control all key aspects of a
                        transaction or event. However, Sandia and Los Alamos had
                        individuals responsible for multiple tasks pertaining to the
                        control over high risk property in the protective force
                        equipment warehouse. At Los Alamos, for example, the
                        warehouse manager was responsible for receiving,
                        inventorying, and issuing protective force equipment. In
                        fact, this same manager was concerned with the lack of
                        segregation of duties. Similarly at Sandia, a protective
                        force official was delegated the responsibility of
                        purchasing, in addition to the functions of receiving,
                        inventorying, and issuing protective force equipment. The
                        protective force operations manager agreed that the
                        potential risk for theft existed due to the lack of segregation
                        of duties.

Implementation of       Both Los Alamos and Sandia stated that they were not
Federal and Internal    required to maintain lifecycle control over defense related
Guidelines              high risk property, such as firearm barrels, body armor, and
                        gas masks, based on a 1996 property waiver from the
                        former Albuquerque Operations Office. However, the
                        Albuquerque Operations Office provided the waiver based
                        on the sites performing "tail-end" reviews to ensure that
                        high risk property was either unusable or made unusable
                        prior to disposal. Although the laboratories' internal
                        policies required tail-end reviews prior to the disposal of
                        high risk property, we found that managers were not always
                        aware of the requirements applicability to gas masks and




Page 3                                                            Details of Finding
________________________________________________________________________


                         firearm barrels. For example, although Sandia provided
                         training in high risk property disposal, a Sandia protective
                         force official responsible for firearm barrels told us that he
                         was unaware that that firearm barrels were considered
                         "high risk property" and that federal and internal disposal
                         requirements applied. Los Alamos staff who disposed of
                         gas masks indicated that they were unaware that the Los
                         Alamos property management organization should have
                         been contacted for the review and destruction of gas masks.

                         During our review, the Sandia and Los Alamos Site Offices
                         rescinded the laboratories' property waivers. In rescinding
                         the waivers, the site offices pointed out that Sandia and Los
                         Alamos are expected to fully comply with federal high risk
                         property regulations, which includes lifecycle
                         accountability of high risk property.

Accountability of High   The lack of accountability controls over firearm barrels, gas
Risk Property            masks, and body armor increased the risk that theft of these
                         items could go undetected. Recently, at another
                         Department site, barrels, rifle scopes, and body armor were
                         stolen and sold for personal gain. Although no internal
                         control measures can prevent incidences from an insider
                         threat, increased management and accountability controls
                         could minimize potential vulnerabilities and risks to public
                         safety and security.

RECOMMENDATIONS          We recommend that the Managers, Los Alamos and Sandia
                         Site Offices, direct Los Alamos and Sandia to ensure that
                         line organization managers:

                            1. Perform accurate inventories of defense related high
                               risk property;

                            2. Document the disposal of defense related high risk
                               property consistent with federal requirements; and,

                            3. Segregate duties for the procurement, inventory,
                               and issuance of protective force equipment.

                         We also recommend that the NNSA Procurement
                         Executive expedite completion of the Business Operating
                         Practices directive to achieve consistent application of high
                         risk property controls throughout the NNSA complex.




Page 4                                                           Recommendations
MANAGEMENT AND     NNSA provided comnients to the draft report and
AUDITOR COMMENTS   concurred with our recommendations to perfomi accurate
                   inventories, document disposals and to segregate duties.
                   NNSA agreed that the lack of controls over firearm
                   components and protective force equipment increased the
                   potential of theft for personal gain. However, NNSA did
                   not agree that the lack of controls could adversely impact
                   national security interests, since the components and
                   equipment could be easily acquired con~merciallyby the
                   general public.

                   Further, NNSA suggested that we recomniend that the
                   NNSA Senior Procurement Executive expedite completion
                   of the Business Operating Practices directives that focus on
                   High Risk Property in totality.

                   Management's comments are responsive to our
                   recommendations. However, we disagree with NNSA's
                   statement that "the lack of controls over firearm
                   components and Protective Force equipment could
                   adversely impact national security interests, since the
                   components and equipment could be easily acquired
                   commercially by the general public." Federal regulation 41
                   CFR 109 Deprrrtnient of Energ)' Property hl~~nugenzent
                   Regzll~rtions,specifically states that high risk property
                   guidance is intended to ensure that the disposition of high
                   risk personal property such as firearm components and
                   protective force equipment, does not adversely affect the
                   national security of the United States.




                   -
                   -                               --
Page 5                                                             Comments
Appendix 1


OBJECTIVE     The objective of our audit was to determine whether
              management controls exist over defense related high risk
              property. Our review was limited to firearms, firearm
              components, and protective force equipment.

SCOPE         The audit work was performed from February 2007 through
              February 2008, and included defense related high risk
              property, purchased, issued, disposed of, and on-hand from
              2005 through 2007, at Sandia National Laboratories
              (Sandia), Albuquerque, NM; and Los Alamos National
              Laboratory (Los Alamos), Los Alamos, NM.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed applicable federal laws and internal
                     policies and procedures relevant to the management
                     of high risk property;

                 •   Reviewed prior audits, inspections, and
                     assessments;

                 •   Obtained and reviewed Sandia's Fiscal Year (FY)
                     2005 and FY 2006 Performance Evaluation
                     Reports;

                 •   Held discussions with Los Alamos, Sandia, and
                     Department officials regarding their management
                     and oversight of defense related high risk property;

                 •   Selected and tested a statistical sample of firearms
                     from the available inventory systems at Los Alamos
                     and Sandia using the U.S. Army Audit Agency
                     Statistical Sampling System; and,

                 •   Inventoried selected protective force high risk
                     property at both Los Alamos and Sandia.

              We conducted this performance audit in accordance with
              generally accepted Government auditing standards. Those
              standards require that we plan and perform the audit to
              obtain sufficient, appropriate evidence to provide a
              reasonable basis for our findings and conclusions based on
              our audit objectives. We believe that the evidence obtained
              provides a reasonable basis for our findings and




Page 6                            Objective, Scope, and Methodology
Appendix 1 (continued)



                         conclusions based on our audit objectives. The audit
                         included tests of internal controls and compliance with laws
                         and regulations to the extent necessary to satisfy the audit
                         objective. Because our review was limited, it would not
                         necessarily have disclosed all internal control deficiencies
                         that may have existed at the time of our audit. Also, we
                         evaluated the Department's implementation of the
                         Government Performance and Results Act of 1993 as
                         related to the audit objective. Our review did not identify
                         any performance measures directly relating to the
                         accountability of defense related high risk property.
                         Finally, since we did not rely upon automated data
                         processing information to accomplish our audit objective,
                         we did not conduct an assessment of the reliability of
                         computer processed data. Management waived an exit
                         conference on April 17, 2008.




Page 7                                        Objective, Scope and Methodology
Appendix 2


                                  PRIOR REPORTS

The Office of Inspector General (OIG) has previously reported on controls over high risk
property.

   •   Controls Over Military-Type Equipment Within the Office of Secure
       Transportation (DOE/IG-INS-L-07-10, August 2007). An inspection was
       conducted to determine the adequacy of the Office of Secure Transportation's
       (OST) property management system internal controls and accountability for
       military-type equipment. The OIG found that internal controls and accountability
       for military-type equipment within OST's property management system were
       inadequate. Specifically, OST had not adequately identified export controlled
       equipment, as designated on the U.S. Munitions List, as high risk equipment, nor
       had it provided for effective control and property management throughout its
       lifecycle.

   •   The National Nuclear Security Administration's Management of Classified
       Weapons Parts (DOE/IG-0772, July 2007). An audit was conducted on selected
       sites from the Department of Energy's (Department's) National Nuclear Security
       Administration (NNSA) to determine whether the sites had adequate
       accountability controls over classified weapons parts. Two of the three sites
       reviewed had not implemented adequate lifecycle controls and did not track many
       classified non-nuclear weapons parts in their custody. Furthermore, during the
       audit, two sites could not readily account for or locate some items.

   •   Protective Force Property Management at Lawrence Livermore National
       Laboratory (DOE/IG-0742, October 2006). An inspection was conducted to
       review the adequacy of internal controls associated with the Lawrence Livermore
       National Laboratory (Livermore) protective force supply room. The OIG found
       that the Livermore protective force supply room was inadequate to protect its
       sensitive property from loss or theft. The OIG recommended that Livermore
       protective force establish a system of stock records for Security Police Officer
       equipment that accounts for inventories on hand, on order, received, issued, and
       disposed of; and, establish improved access controls for the supply room to
       minimize the number of non-supply room personnel obtaining unescorted access.

   •   Inspection of Firearms Internal Controls at Los Alamos National Laboratory
       (DOE/IG-0587, February 2003). An inspection was conducted to determine if
       internal controls over firearms at Los Alamos National Laboratory (Los Alamos)
       were adequate and whether the firearms inventory was administered
       appropriately. The OIG found that significant internal control weaknesses existed
       in the receiving process and the administration of the firearms inventory.
       Specifically, Los Alamos officials were unable to provide an accurate firearms
       inventory list; some firearms were not entered into the inventory (including 12
       shotguns received in 1999); and, all firearms were not processed through a central
       receiving point resulting in delays in entering firearms into the property
       inventory.

Page 8                                                                    Prior Reports
Appendix 2 (continued)


  •   Firearms Internal Controls at the Lawrence Livermore National Laboratory
      (DOE/IG-0621, September 2003). An inspection was conducted to determine if
      internal controls over firearms at Livermore were adequate and whether the
      firearms inventory was administered appropriately. The OIG found that internal
      controls over Livermore's administration of the firearms inventory were
      unsatisfactory. Specifically, five firearms that had been purchased over ten years
      ago did not have property control numbers and were not listed in the property
      inventory; and, Livermore was not conducting monthly inventories of firearms
      issued to protective force personnel as required by Department policy.




Page 9                                                                    Prior Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (Continued)




Page 11                  Management Comments
                                                                    IG Report No. OAS-M-08-06


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
